<html>
<title> - HUMAN RIGHTS UNDER SIEGE WORLDWIDE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   HUMAN RIGHTS UNDER SIEGE WORLDWIDE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-204

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-741PDF                      WASHINGTON : 2016                       
                                 
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7314031c33100600071b161f035d101c1e5d">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark P. Lagon, president, Freedom House............     5
Thomas Farr, Ph.D., president, Religious Freedom Institute.......    22
Ms. Amanda Schnetzer, director, Human Freedom Initiative, The 
  George W. Bush Institute.......................................    31
Mr. Mark Bromley, chair, The Council for Global Equality.........    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark P. Lagon: Prepared statement..................     8
Thomas Farr, Ph.D.: Prepared statement...........................    24
Ms. Amanda Schnetzer: Prepared statement.........................    34
Mr. Mark Bromley: Prepared statement.............................    41

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Letter from the Anti-Defamation League................    75
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York:
  Statement of David Stacy, Government Affairs Director, Human 
    Rights Campaign..............................................    81
  Statement of Judy Shepard, President and Co-Founder, Matthew 
    Shepard Foundation...........................................    84
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Prepared statement..................    86

 
                   HUMAN RIGHTS UNDER SIEGE WORLDWIDE

                              ----------                              


                         TUESDAY, JULY 12, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce [presiding]. This hearing will come to 
order. This morning we meet to survey the troubling state of 
human rights around the world.
    Freedom House does a report every year. Its 2016 World 
Report shows the 10th consecutive year of decline in global 
freedom. Unfortunately, the world's most abusive governments 
continue their abuses while non-state actors have become 
boastful promoters of unspeakable evil.
    Whether in Syria, Iraq, Libya, or the Sinai, ISIS has set a 
new standard for brutality--bombing Shi'ite neighborhoods, 
selling young Yazidi girls into sexual slavery, slitting the 
throats of Christians, throwing gay men to their deaths from 
rooftops. The House of Representatives and the White House have 
recognized ISIS attacks on Yazidis, on Christians, on Shia 
Muslims. All of this has been recognized as genocide, and 
``genocide'' is the only word for it.
    In Africa, Boko Haram continues to attack Christians and 
many Muslims. From church and mosque bombings to mass 
kidnappings of children, this deranged group has cut a wide 
swath of terror through Nigeria and neighboring countries, 
killing thousands and displacing millions.
    In May, a mob of Islamists in southern Egypt reportedly 
forced a 70-year-old Christian woman to walk naked through the 
streets before burning down homes belonging to Christian 
families. This is just one of many recent attacks against 
Christians in Egypt.
    Religious minorities from nearly every faith face 
persecution somewhere in the world.
    Human trafficking remains a global epidemic that preys on 
millions of women, girls, and migrant workers who are trapped 
in degrading and dangerous forms of modern slavery. In June, 
the House passed Congressman Trott's legislation to address 
another ghoulish form of exploitation--trafficking in persons 
for the removal of their organs.
    Many regimes such as China, Cuba, Iran, Sudan, and Vietnam 
continue to deny basic political rights to their citizens. 
North Korea's brutal Kim dynasty continues to imprison entire 
families in its vast and deadly gulag that holds more than 
100,000 political prisoners. The death toll from the Assad 
regime's deliberate targeting of civilian populations in Syrian 
is staggering. It is estimated to be in the hundreds of 
thousands.
    According to experts, press freedom has declined to its 
lowest point in 12 years. In places like Russia and Iran, we 
have seen governments take extreme measures to stifle 
communication, intimidate political opposition, and deny basic 
rights of speech and assembly to disfavored groups, including 
LGBT persons.
    Child marriage has dire, life-long consequences for the 
health, safety, education, and opportunity of the estimated 15 
million girls that it victimizes every year. That is one girl 
every 2 seconds.
    Torture, extrajudicial killings, forced conscription of 
child soldiers, so the list goes on and on.
    Too often, public discussions present a false choice 
between stability and human rights. That has been the favored 
dodge of dictators and despots since the last century. But U.S. 
national security is bolstered when states are stable, and 
stability ultimately depends on respect for fundamental human 
rights. Human rights can't be our only foreign policy guide, 
but neither can human rights be discounted, which happens too 
often.
    America has inspired the human rights movement worldwide 
for decades. This hearing will help us understand what is 
driving the global decline in human decency that I have 
mentioned and is to discuss how we can turn around this 
depressing trend, including by being the best example we can 
be. Promoting respect for the human rights of all people serves 
the national interest and the national values of the United 
States.
    I now turn to Mr. Cicilline, and I yield him 2\1/2\ 
minutes. And I am informed that Mr. Engel in the meantime is on 
his way here.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and I thank you and 
Ranking Member Engel for holding this important hearing.
    Human rights form the most fundamental basis of our 
democracy. What has set us apart from other nations for more 
than 200 years is our dedication to fundamental freedoms, 
equality, and universal values.
    It is especially poignant that this hearing is being held 
on the 1-month anniversary of the massacre of 49 people at a 
gay nightclub in Orlando, Florida, which underscores the 
importance of this hearing. If the basic human rights of people 
for simply being who they are makes them targets in the United 
States, sadly, serious and sometimes deadly human rights abuses 
exist in nations all over the world.
    According to Freedom House, freedom around the world has 
been in steady decline for 10 years, and 2015 had the steepest 
decline yet. The war in Syria, the resulting refugee crisis, 
and the rise in extremism have all contributed to crackdowns in 
the name of so-called security and a general decline of human 
rights in every region in the world.
    I am especially concerned by the uptick in abuses against 
vulnerable populations who are already at grave risk in many 
countries, especially religious and sexual minorities. In 
particular, lesbian and gay, bisexual, and transgender 
communities around the world have experienced horrific 
violence, and violations of basic human rights have put 
individuals in these categories at grave risk for injury or 
death simply because of who they are. LGBT people abroad face 
horrific persecution, threats, constant harassment, lack of 
access to healthcare, marginalization, violence, and death 
because of their status or perceived status of being gay, 
lesbian, or transgender.
    There is an important national security angle to this 
issue. Anti-LGBT rhetoric and violence that spreads around the 
world can also come home to harm American citizens. It is 
crucial that we fight this rhetoric and violence, not only 
because it is the right thing to do, but also because it 
ensures that it does not come back to harm American citizens 
again.
    Countries that are attacking LGBT people are also the ones 
most likely to crack down on human rights and civil society 
generally. Nowhere have we seen this more violently than in 
ISIL-controlled territories, where men have been accused of 
same-sex activity and publicly-executed in horrifying ways.
    In light of the ongoing discrimination and violence faced 
by the LGBT community around the world, their struggle for 
equality and justice abroad remains significant. There are 
still many countries in which homosexualality is illegal, LGBT 
persons are persecuted, and public support for the LGBT 
community is prohibited. Over 75 countries have anti-LGBT laws. 
There are nearly 300 reported cases of transgender people 
murdered in 29 different countries last year and countless 
underreported cases around the globe.
    What may be most disturbing is that the highest number of 
murders have been in countries with strong trans-movements and 
civil society organizations that carry out forms of 
professional monitoring. Because of the particular heinous 
nature of the violations routinely committed against LGBT 
communities around the world, this hearing is particularly 
important. We know the United States Government's attention and 
engagement on human rights makes a difference.
    In 2011, President Obama addressed the United Nations 
General Assembly and stated that, ``No country should deny 
people their rights because of who they love, which is why we 
must stand up for the rights of gays and lesbians everywhere.''
    Soon thereafter, President Obama issued a Presidential 
Memorandum entitled, ``International Initiatives to Advance the 
Human Rights of Lesbian, Gay, Bisexual, and Transgender 
Persons,'' to address the global challenges of the LGBT 
community. In the following years, we saw the creation of the 
Office of the Special Envoy for Human Rights of Lesbian, Gay, 
Bisexual, Transgender, and Intersex Persons at the Department 
of State and a Senior LGBT Coordinator at the U.S. Agency for 
International Development. Our commitment to promoting the 
human rights of the LGBT community is clear and we must ensure 
it continues.
    Although these examples of U.S. Government and U.N. support 
for LGBT human rights are positive steps, the violence and 
rights abuses faced by the LGBT community worldwide is 
unacceptable and we need to do more. A great man, Elie Wiesel, 
once told us, ``We must take sides. Neutrality helps the 
oppressor, never the victim. Silence encourages the tormenter, 
never the tormented.''
    It is on all of us, Democrats and Republicans alike, to 
ensure that we continue working long after today to defend and 
protect human rights of all persons around the world. I hope 
this hearing will help to bring greater attention to these 
issues and motivate this committee to take action to protect 
the human rights of all people.
    And I thank you again, Mr. Chairman and the ranking member, 
for yielding. I look forward to hearing from all of our 
witnesses today.
    Chairman Royce. Thank you, Mr. Cicilline.
    Let me introduce our distinguished panel here to the 
members. Ambassador Mark Lagon is the president of Freedom 
House. Previously, Ambassador Lagon served as the Ambassador-
at-Large and Director of the Office to Monitor and Combat 
Trafficking in Persons, as well as the Deputy Assistant 
Secretary of State in the Bureau of International Organization 
Affairs. We welcome him back to the committee.
    Dr. Thomas Farr is president of the Religious Freedom 
Institute, and prior to this position, Dr. Farr served as the 
founding Director of the State Department's Office of 
International Religious Freedom.
    Mrs. Amanda Schnetzer is the founding director of the Human 
Freedom Initiative at the George W. Bush Institute. Previously, 
Mrs. Schnetzer was a senior fellow and director of studies at 
Freedom House.
    Mr. Mark Bromley is the chair at the Council for Global 
Equality, and previously, Mr. Bromley worked for more than a 
decade at Global Rights. And he served as a foreign policy 
fellow for Senator Feingold from 2001 to 2002.
    So, without objection, the witnesses' full prepared 
statements will be made part of the record. Members will have 5 
calendar days to submit statements or questions or any 
extraneous material for the record.
    I am going to go to our ranking member, Mr. Engel, to use 
the balance of the time, if you have an opening statement you 
would like to make.
    Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman, and I want to commend 
our colleague, Mr. Cicilline of Rhode Island, for his eloquent 
statement.
    And I am glad the committee is focusing on threats to human 
rights around the world and how it ties into America's security 
and interests.
    I know our witnesses are about to speak. I want to welcome 
you personally to the Foreign Affairs Committee.
    The committee has considered a wide range of human rights 
issues that affect every region in the world, and we have dealt 
with abuse of civil and political rights as well as rights to 
life and personal safety.
    And so, I want to welcome you.
    We have seen a troubling trend in recent years. According 
to Freedom House, for the 10th consecutive year of declining 
freedom around the world, and 72 countries were in a downward 
trajectory last year versus just 43 that made gains when it 
comes to human rights.
    I am told that the Oversight and Government Reform 
Committee, as we speak, is holding a hearing about legislation 
that we believe would permit discrimination against LGBT 
Americans. So, it is just always a fight.
    And with respect to those rights, LGBT rights, we have seen 
a particularly disturbing trend of laws that criminalize same-
sex activity and other oppressive political policies aimed at 
the LGBT community. We see this in places like Russia, Brunei, 
and Uganda. And when you see LGBT rights under assault, it is a 
pretty good predictor that governments are cracking down on 
human rights in civil society more generally.
    Nowhere have we seen more horrific treatment of LGBT 
persons than in areas controlled by ISIS. Gay men have been 
publicly executed in just horrific ways. When we see these 
kinds of abuses, we have an obligation to act. Basic rights and 
human dignity are at the core of American values. No person 
should endure violence or discrimination just because of where 
they live, how they worship, or who they love.
    And beyond a moral imperative of advancing human rights, we 
have a security interest in these issues. It has been a month 
today since the shooting at the Pulse nightclub in Orlando. 
This was an ISIS-inspired hate crime. When messages of hatred 
and bigotry are allowed to thrive, it creates a risk to us 
right here at home.
    So, I am glad, and I commend the chairman, that the 
committee is taking up this issue. I am grateful to all 
witnesses and I look forward to their testimony.
    Again, I want to thank Mr. Cicilline.
    And I want to just single out one of our witnesses, Mark 
Bromley, who will talk to us about the violence and persecution 
facing the LGBT communities around the world.
    I thank all our four distinguished witnesses, and I yield 
back the balance of my time.
    Chairman Royce. Well, I thank you, Mr. Engel.
    And I will encourage Ambassador Lagon and all of our 
witnesses here, if you summarize your remarks, I think that is 
most impactful. And then, we will go to questions and answers 
after you have begun.
    So, Ambassador, we will go with you first.

 STATEMENT OF THE HONORABLE MARK P. LAGON, PRESIDENT, FREEDOM 
                             HOUSE

    Ambassador Lagon. Chairman Royce, Ranking Member Engel, and 
members of the committee, it is an honor to testify.
    Human rights and freedoms around the world are inextricably 
linked to the national security and economic interests of the 
United States. Not only is investing in these principles a 
natural expression of our values, it is a necessity to protect 
our own interests. Our diplomacy and foreign assistance should 
empower human rights defenders and reformers to build free, 
flourishing, and peaceful societies.
    ``Freedom in the World,'' Freedom House's flagship 
publication, has, indeed, documented the 10th straight year of 
a global decline in freedom affecting 105 countries during that 
decade. The three areas where the sharpest declines have 
occurred are freedom of expression, rule of law, and freedom of 
association.
    Economic pressures have fueled public unrest and have been 
met with harsh crackdowns in many of the world's authoritarian 
countries. Rulers in Azerbaijan, China, Egypt, Ethiopia, 
Russia, and Turkey, among others, have used antiterrorism laws, 
blasphemy and insult laws, and laws governing the registration 
and foreign funding of non-government organizations to 
effectively muzzle civil society and stamp out dissent. This 
crisis has been accompanied worldwide by growing xenophobic 
sentiment in many parts of the world, including in the West, in 
Europe.
    It is my view and Freedom House's that it is better to 
spend a small amount now to strengthen good governance and 
maintain peace than to spend a large amount in the future on 
military intervention or rebuilding after war. Ethiopia is 
prime example. Viewed as a key partner in the war on terror, 
its harsh repression of dissent raises questions about its 
long-term viability as an effective partner.
    We often fund healthcare, food aid, and climate change, and 
efforts like those in Ethiopia, but we don't always fund 
governance. But, without good governance, there can't be any 
reliable access to food or healthcare.
    In the same way that security is unsustainable without 
fair, democratic institutions and rule of law, so, too, is 
economic development. Governments built on the respect for 
human rights and rule of law tend to foster transparent, stable 
environments conducive to free enterprise.
    Strong growth in certain repressive states sometimes gives 
the misleading impression that authoritarianism is good for 
business. The People's Republic of China is a perfect example. 
Freedom House found that repression has worsened under 
President Xi Jinping. In response to the 2015 stock market 
drop, Xi's government has unleashed aggressive interventions in 
the market, enhanced censorship, arrested over 200 involved in 
public interest legal activism, and passed a sweeping, 
deliberately vague law which will impact more than 7,000 
foreign NGOs and their local Chinese partners.
    One of the affected organizations, the American Chamber of 
Commerce in China, found that anti-corruption and intellectual 
property rights remain a concern for Americans doing business 
in China. Their surveys also indicate that four out of five 
companies reported being negatively affected by Chinese 
internet censorship.
    Freedom House argues that we should ensure that we are 
investing in our wins. Tunisia is one of the success stories of 
the Arab Spring, arguably, the only one, but its nascent 
democracy is still in danger. Terrorist attacks and ISIS 
recruitment tempt Tunisia's Government to take steps that might 
imperil the path toward democracy consolidation, undercutting 
the positive elections and new constitution ensuring civil 
liberties.
    Another glimmer of hope is in Burma, where an overwhelming 
victory for Aung San Suu Kyi's National League for Democracy 
represents a remarkable turnaround, but ethnic and religious 
tensions persist with violence against the Muslim Rohingya and 
the largely Christian Kachin. This is why Freedom House in its 
programmatic work has a project in Burma working on religious 
pluralism and why U.S. policy should continue to invest in 
Burma.
    If we are serious about enabling nations to build free, 
flourishing, and peaceful societies, there are several things 
Freedom House would recommend.
    First, the United States should make democracy and human 
rights integral to our foreign policy. In Egypt, for instance, 
a more effective U.S. policy would use the leverage of military 
assistance to pressure the el-Sisi regime to loosen its 
controls on Egyptian society and give Egyptians avenues for 
peaceful dissent to contribute to real stability.
    Second, democracy and human rights should be a consistent 
component of our foreign policy agenda, raised at the highest 
levels from the President on down. A Freedom House study in 
late 2014 found that democratic powers tend to shy away from 
pressing human rights in China. That is a mistake, and for the 
United States it demeans, rather than increases, our 
credibility.
    Third--and I will finish in a moment--we should generate 
solidarity among the democracies to invest in human rights and 
democracy support.
    Fourth, we should support civil society groups consistently 
because they are key agents of peace and prosperity. We should 
not allow U.S. aid to prop up repressive governments that 
squash independent groups.
    And finally, Congress should pass the Global Magnitsky 
Human Rights Accountability Act, which will impose visa bans 
and asset freezes on foreign officials responsible for human 
rights violations and large-scale corruption.
    Reversing the decade-long slide in human rights and 
democracy is important for stability and growth to be truly 
sustainable. The United States need to apply the many assets it 
has to fighting for pluralism. These steps are low-cost and 
high-value investments suited precisely to a time of husbanding 
resources for what is most important.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Lagon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Feel free if you want to follow up, Doctor. 
Do you have a few words there?

 STATEMENT OF THOMAS FARR, PH.D., PRESIDENT, RELIGIOUS FREEDOM 
                           INSTITUTE

    Mr. Farr. I do, indeed.
    Chairman Royce. Please share them with us.
    Mr. Farr. Chairman Royce, Ranking Member Engel, members of 
the committee, thanks for inviting me to testify. I am going to 
address the global crisis of religious freedom, the largely-
ignored consequences of this crisis for our nation, and how 
religious freedom can increase American security here and 
abroad.
    At a recent conference, a young Iraqi couple described the 
terrible travail of Christians in Iraq and Syria, and I quote: 
``ISIS terrorists are raping and killing children in front of 
their parents. Then, they are killing the parents.'' If 
something doesn't stop this slaughter, they told a stunned 
audience, Christians and Christianity will soon be eliminated. 
The same is true of the Yazidis and other minority religions.
    This is but one of millions of stories of terrible human 
suffering resulting from the vile religious persecution that is 
occurring with growing frequency around the world. We are 
witnessing in the 21st century a global human rights 
catastrophe, one with extraordinary consequences for the United 
States.
    Last month the Pew Research Center issued the latest in a 
series of annual reports. The findings are chilling. Let me 
cite three.
    First, three-quarters of the world's population lives in 
countries where religious freedom is severely restricted.
    Second, over the past 8 years, nations experiencing 
injuries and deaths from religion-related terrorism have 
increased from 17 nations to 60.
    Third, social hostility toward religion in America has 
increased so dramatically that the United States is now listed 
in the category of high levels of social hostility toward 
religion.
    Among the most serious consequences of this global crisis 
is the growing threat of violent Islamist extremism and 
terrorism, which continues to be incubated in the Middle East 
and exported around the world, including to the American 
homeland. Advancing religious freedom successfully in U.S. 
foreign policy would help to undermine terrorism. 
Unfortunately, religious freedom currently plays no part in our 
national security policy, but it should. The fate of Christians 
and other minorities in Iraq and Syria is closely related to 
American national security. If these minorities are eliminated, 
with them will go any opportunity for pluralism and stability. 
Iraq and Syria will become perpetual training grounds for 
terrorism.
    Unfortunately, military means alone are not going to defeat 
the scourge of violent Islamist extremism. Even if we defeat 
ISIS as a military force, we will not have eliminated the 
source of terrorism. We must also defeat the ideology of 
extremist Islam. Otherwise, it will continue to spread as a 
global agent of terrorism. If we fail at this task, we will 
face continued upheaval in the Middle East and elsewhere as 
well as an increase in violent attacks on our own children at 
home.
    The only force that can defeat the ideology of violent 
Islamist extremism is Muslims themselves, stakeholders in the 
nations where this ideology is dominant. But this cannot happen 
without the advancement of religious freedom in those nations.
    In recent years, Georgetown's Religious Freedom Project has 
demonstrated how religious freedom helps societies achieve such 
goods as stable democracy, economic growth, and undermining 
violent religious extremism. For example, in many Muslim 
majority countries, public debate over Islam is dominated by 
those whose radical understandings of Islam are protected by 
laws against blasphemy and defamation. Muslims are, in effect, 
prevented from debating publicly their own religious 
principles.
    Success in advancing religious freedom would break this 
radical monopoly, empowering Muslim reformers to argue not only 
that Islam rejects terrorism, but it requires equality for all 
citizens, including non-Muslims and women. Religious freedom 
will provide young Muslims an alternative to extremism by 
encouraging them to participate in their own political systems, 
an opportunity that has rarely existed in nations where 
Islamist terrorism has emerged and flourished.
    And so, Mr. Chairman, if we succeed at advancing religious 
freedom, these societies will become more stable and the 
American people more safe and secure.
    Thank you.
    [The prepared statement of Mr. Farr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              


  STATEMENT OF MS. AMANDA SCHNETZER, DIRECTOR, HUMAN FREEDOM 
            INITIATIVE, THE GEORGE W. BUSH INSTITUTE

    Ms. Schnetzer. Chairman Royce, Ranking Member Engel, and 
distinguished members of the committee, it is an honor to be 
here today.
    My comments will focus on the connection between promoting 
human rights and freedom abroad and maintaining our security 
here at home. Seventy-five years ago, President Franklin 
Roosevelt delivered his famous Four Freedoms speech to 
Congress. He warned that ``at no previous time has American 
security been as seriously threatened from without as it is 
today.'' In making the case to end U.S. neutrality in the war, 
President Roosevelt redefined America's role in the world by 
intertwining our national security with the fight against 
tyranny beyond our shores. ``The future and safety of our 
country and our democracy are overwhelmingly involved in events 
far beyond our borders,'' he warned.
    This principle is just as relevant today, as the 
adversaries of freedom once again gain ground. Although 
substantially more people in the world experience liberty today 
than at the end of World War II, more than half the world's 
population still lives in countries where basic political 
rights and civil liberties are only partly respected, if at 
all. The last decade, in particular, has not been good for 
freedom, as Mark Lagon told us.
    As the challengers to liberalism gain adherence, it is in 
the direct and immediate interest of the United States to 
support the advance of human rights and freedom abroad. The 
current mood in the United States does not appear conducive to 
this strategy. New Pew research polling shows that 70 percent 
of Americans want the next administration to focus on domestic 
policy over foreign policy. Yet, in order to address the major 
threats that keep Americans awake at night, strong U.S. 
leadership is still required.
    So, where do we go from here? One step would be for 
policymakers to make the promotion of democracy and human 
rights an important part of their foreign policy agendas. This 
March, 139 policy experts, civil society leaders, and former 
elected officials, Republicans and Democrats alike, signed a 
letter encouraging the Presidential candidates to do just that. 
The letter called it a ``false choice'' to pit the pursuit of 
democratic ideals against national security.
    A second step would be to engage the American people in a 
conversation about the impact of advancing freedom on our own 
peace, prosperity, and security here at home. At the end of 
World War II, for example, many questioned whether democracy 
was compatible with Germany and Japan. Today these are among 
our strongest partners and allies in the world, and Americans 
reap tangible benefits.
    During the Cold War, the United States supported democratic 
reform in then authoritarian allies such as Taiwan and South 
Korea, the Philippines, and Chile. The end of the Cold War was 
a major victory for freedom in Central and Eastern Europe and 
for American peace and security.
    Today the morale and strategic imperatives of advancing 
human rights can be seen in numerous examples. I will take 
three from our work at the Bush Institute.
    As First Lady and still today, Laura Bush has made the 
empowerment of women in Afghanistan a priority. Women and girls 
have made important gains since the end of Taliban control. 
Yet, those achievements are fragile and the need for continued 
U.S. support and engagement is there. It matters to Americans 
because investing in women in Afghanistan promotes stability 
and helps reduce the possibility of future terrorist attacks on 
the United States emanating from that country.
    The Institute is also investing in the next generation of 
women leaders in the Middle East, in Egypt and Tunisia. Tunisia 
may be the only success story of the Arab Spring, but the 
sentiments that inspired democratic uprisings across the region 
remain: Frustration with injustice, lack of freedom, and a 
dearth of economic opportunity.
    The same factors were present in Syria, but the failure to 
liberalize there and elsewhere in the Middle East has had 
devastating consequences. It is in the interest of the United 
States to see the forces of freedom eventually prevail.
    The Institute's Liberty and Leadership Forum is helping 
develop young leaders in Burma who are playing important roles 
in their country's democratic opening. For more than two 
decades, U.S. policy focused on isolating Burma's military 
junta and advancing the cause of Aung San Suu Kyi and the 
democratic opposition. Today Burma's strategic importance is 
also rising, as China grows more aggressive in consolidating 
its power and influence in Asia.
    There is also the example of North Korea. In 2015, the 
Institute released a report calling for new approaches to 
address the human rights abuses of the Kim regimes. One of the 
report's recommendations is to treat human rights and the 
nuclear threat as symbiotic. Policy opportunities including 
human rights, integrating human rights into mainstream 
diplomacy, the sanctions regime, and frameworks for looking at 
future unification are among them. The recent decision to 
sanction Kim Jong Un and 10 other North Koreans for human 
rights abuses is a move in that direction.
    A third step in breaking the false dichotomy of human 
rights and national security would be to encourage relevant 
research. The Committee for Human Rights in North Korea, for 
example, has done important work documenting the DPRK's use of 
forced labor to generate revenue for the government, including 
its nuclear program.
    Finally, a fourth step would be to seek immediate 
opportunities for bipartisan action. In 1982, President Ronald 
Reagan acknowledged that policymakers can disagree on many 
things, but he said, ``on one point, all of us are united--our 
abhorrence of dictatorship in all its forms.'' He then called 
on leaders in Europe and the United States to ``take actions to 
assist the campaign for democracy.''
    The founding of the National Endowment for Democracy 
followed a year later with strong bipartisan support. The 
creation of the Millennium Challenge Corporation in 2004 is 
another example of important bipartisan action.
    In the current political environment, this may be a tall 
order, but the stakes at home and abroad are high, and American 
leadership is essential.
    Thank you.
    [The prepared statement of Ms. Schnetzer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              


 STATEMENT OF MR. MARK BROMLEY, CHAIR, THE COUNCIL FOR GLOBAL 
                            EQUALITY

    Mr. Bromley. Thank you, Mr. Chairman. Thank you, Mr. Engel. 
Thank you, Mr. Cicilline, for your opening remarks.
    I would like to say a bit more today about the human rights 
protections that are under siege for lesbian, gay, bisexual, 
and transgender individuals globally. The targeted attack on 
the gay bar in Orlando just 1 month ago, as already noted, is a 
sobering reminder of that fact. I would like to argue here 
today that targeted LGBT violence and anti-LGBT propaganda in 
general challenge fundamental democratic values and pluralistic 
societies everywhere.
    For many LGBT individuals globally, particularly in the 
nearly 80 countries that criminalize consensual same-sex 
relationships with long prison sentences or death, violence is 
an everyday reality. The State Department's Annual Human Rights 
Report confirms this. In this year's report, targeted LGBT 
killings are cited in countries ranging from Honduras to Russia 
to Pakistan. In Zimbabwe, families subjected their LGBTI 
members to corrective rape. In Ecuador, private treatment 
centers confined LGBTI persons against their will. From 
Azerbaijan to Kenya and from Guatemala to Turkey, and Indonesia 
to Sri Lanka, the State Department reports on the abuse of LGBT 
citizens by police forces.
    Given these findings and turning back to Orlando and its 
global legacy, I believe our country and our allies must not 
underreact or overreact, and we must not confuse the difference 
between the two. To be sure, ISIS is, indeed, a threat to the 
LGBT community, as it is to other ethnic and religious 
communities in the Middle East and beyond. As noted already, 
the State Department has found that ISIS is responsible for 
genocide against Yazidis, Christians, and Shia Muslims. In the 
same way, ISIS has also targeted LGBT individuals with 
ferocious violence and a similar intent to destroy the 
community.
    OutRight Action International has documented more than 40 
men who have been accused of sodomy and killed in horrific 
public executions in the recent past, and those are just the 
cases that ISIS itself has taken credit for. Last summer the 
United States and Chile cosponsored a Security Council briefing 
on LGBT-related atrocities in ISIS areas.
    But ISIS is not the only perpetrator. On another front, 
Russia has led a new assault on LGBT organizations and 
individuals through an anti-propaganda law that bans all public 
discussion of homosexuality, even in the context of HIV/AIDS.
    Authoritarian governments from Uganda to Kazakhstan, and 
even allies such as Egypt and Indonesia, have adopted anti-LGBT 
rhetoric to justify the closing of civic space. While targeting 
gay groups, Russia has also gone after democracy and human 
rights groups, and it just adopted alarming new restrictions on 
religious groups as well.
    At the same time, I urge us not to overreact. We must not 
close our borders or turn inward. We need to offer protection 
to refugees, including LGBT refugees who are some of the most 
vulnerable individuals on the planet. And we must not allow 
countries to justify sweeping anti-democratic actions in 
response to terrorism.
    So, in this global environment, what course should we chart 
abroad? First, in the LGBT context, we should continue to 
invest in the Global Equality Fund at the State Department, 
which is supported by 13 other countries under U.S. leadership. 
The Fund has assisted frontline human rights defenders in more 
than 80 countries globally. The State Department is also 
identifying opportunities to address bias-motivated violence by 
supporting law enforcement and by including new hate crimes 
courses in our International Law Enforcement Academies around 
the world.
    We also should support USAID and the World Bank as they 
identify development opportunities for individuals and 
demonstrate the macroeconomic benefits of LGBT participation in 
the workplace. A World Bank study recently concluded that 
homophobia costs the Indian economy $31 billion or more 
annually in lost economic opportunities. In short, these very 
modest U.S. investments offer important long-term dividends.
    This is also the moment to engage multilateral 
institutions, including the United Nations. The Human Rights 
Council created a new, independent expert position to respond 
to these abuses just 2 weeks ago. And the U.N. Security Council 
condemned the killings in Orlando, recognizing for the first 
time that individuals were targeted because of their sexual 
orientation.
    Mr. Chairman, countries that turn on their own LGBT 
citizens or that scapegoat them to distract from broader 
political or economic failings are equally likely to turn on 
other ethnic or religious minorities and on human rights and 
democracy groups writ large. The Anti-Defamation League has 
documented strong links between anti-Semitism and homophobia in 
Europe and beyond. The actors are the same, the intentions are 
the same, and the violence is too often the same.
    In contrast, our strongest allies, from Canada to our 
European partners to Israel, have strong civil rights 
protections for their LGBT citizens. This is not a coincidence, 
and we should make that point to governments that hope to 
deepen their relationship with the United States.
    [The prepared statement of Mr. Bromley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Thank you, Mr. Bromley.
    Let me begin with a question to Mr. Farr. This concerns the 
importance of promotion of religious freedom in the fight 
against radical Islamist extremists such as ISIS or Boko Haram. 
How would you say the United States could most productively 
support that goal?
    Mr. Farr. Well, thanks for that question, Mr. Chairman. One 
very practical thing, if I might say so, if I could commend the 
committee for passing out H.R. 1150, which is now in the 
Senate. If that bill is signed and sent to the President and he 
signs it, I think it will energize the State Department. It is 
the Frank Wolf International Religious Freedom bill. It will 
empower, give greater resources and status to the Ambassador-
at-Large, who is an excellent Ambassador, David Saperstein, 
along with Knox Thames, who is the Special Advisor for 
Minorities in the region. These people, if they had more 
authority and resources, I think could do the kinds of things 
that I think the United States could do, but is not doing.
    Chairman Royce. Thank you, Doctor. I appreciate that.
    Let me ask Mrs. Schnetzer a question here about North 
Korea. I know you have done a lot of work on that front. Maybe 
you could tell us what could improve the human rights situation 
there in North Korea, in your view.
    Ms. Schnetzer. Yes, sir. I think the way to improve the 
human condition in North Korea is multifaceted. Our work at the 
Bush Institute, we have introduced reports that talk about 
opportunities both for government, for civil society, and for 
the private sector to try to address the grievous abuse of 
human rights in that country.
    There are a variety of ways to do that from a policy 
standpoint and for civil society and business to engage. One 
example that we are continuing to work on is the opportunity on 
the policy front to look at the intersection of our approach to 
human rights in North Korea and our concerns about security and 
nuclear, and that, for too long, those two have been considered 
in parallel form, perhaps as disconnected from one another. 
What we are finding is that those two are intimately linked; 
that the way the North Korean Government treats its own people 
has a direct link to how they engage others in the world and 
act internationally. And as I mentioned, there is even research 
beginning to emerge that shows that things like the use of 
slave labor, the human rights abuses of the regime can be 
directly connected to the resources coming into the regime, 
including for its nuclear program.
    Chairman Royce. Thank you.
    The last question I am going to ask is the Freedom House's 
report would label Russia as not free. So, Mr. Lagon, 
Ambassador, we have seen the space for independent media sort 
of disappear in Russia. We had the opposition leader Krym 
Realii blocked, or I should say the Radio Free Europe/Radio 
Liberty reporter. More concerning to me was Vladimir Kara-
Murza, the journalist that was poisoned last December. And 
then, in January you had President Putin signing the new law, 
the restrictions on social media and internet communications. I 
would just ask you for your observations on this.
    Ambassador Lagon. A lot of people have focused on the 
situation for civil society groups with the foreign agents law 
and the undesirable organizations law. I am glad you ask about 
the media situation. There has been longstanding control or 
influence over major media operations, but things are getting 
worse for journalists.
    It is part of two lobes of active, well-funded Russian 
policy: Control of the media at home and intimidation of those 
who would be dissenting voices.
    Chairman Royce. Well, when you are being poisoned, when you 
tell your audience, ``I fear that I might be poisoned by the 
regime''----
    Ambassador Lagon. That is about as intimidating as it gets.
    Chairman Royce. But, I mean, you get poisoned and, then, 
you are hospitalized for poisoning.
    Ambassador Lagon. Yes.
    Chairman Royce. It is concerning. It is concerning to me 
because the independent media, I was following some of the 
reporters in Moscow and one of the last independent papers. 
After the fifth journalist was shot without anyone discovering 
who shot him, it began to establish in my mind the conclusion 
that the regime apparently didn't want any independent media.
    So, I would ask, how impactful has the West been in finding 
alternative ways to get information in through social media or 
in through broadcasting to offset some of this?
    Ambassador Lagon. Not impactful enough. And I think that 
your own interest in public diplomacy and legislation to focus 
on that is very important. I think the United States should 
work on assisting indigenous independent media, funding to 
train journalists. We are encouraged in emergency assistance to 
all of the world to those who are intimidated as voices in the 
media and as human rights defenders.
    I think Radio Free Europe and Radio Liberty not only should 
have good content on the political situation, filling in for 
the absence of independent media, but it should actually be 
designed to engage viewers more. In fact, to have entertainment 
will allow more people to hear the truth as well.
    And think about ProPublica that has looked at the web of 
corruption around the world. We ought to try to promote 
something similar to ProPublica in Russia to cover the 
corruption situation because the gangland violence situation 
that you describe in Russia is because of the mating of human 
rights oppression and corruption in the regime.
    Chairman Royce. Thank you. My time has expired.
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    First of all, I ask unanimous consent to enter into the 
record testimony from the Human Rights Campaign in support of 
this hearing.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Engel. Mr. Bromley, let me ask you this question: In 
March 2015, I sent a bipartisan letter to USAID with Chairman 
Emeritus Ros-Lehtinen urging targeted funding to protect the 
human rights of LGBT individuals in the Northern Triangle 
countries of Honduras, Guatemala, and El Salvador. As you know, 
violence against the LGBT community in these countries has 
reached dangerous levels. I was particularly disturbed by the 
recent murder of LGBT activist Rene Martinez in Honduras. The 
United States is providing $750 million in new assistance to 
Central America this year and, hopefully, in subsequent years. 
How can this funding be used to help the LGBT community in 
Honduras, El Salvador, and Guatemala? How specifically can 
USAID and the State Department better assist the LGBT 
population in Central America? I know Chairman Ros-Lehtinen 
joins me in concern of all these issues.
    Mr. Bromley. Thank you, Mr. Engel, and thank you, Ms. Ros-
Lehtinen, for your support on that initiative.
    As you mentioned, the levels of violence in Central America 
are dangerously high. The average life expectancy of a 
transgender woman in Central America is estimated to be 35 
years of age and probably lower in Honduras and some other 
countries. So, this is a real epidemic of violence, and support 
is important.
    There have been some steps with U.S. Government support, 
including the creation of a Special Victims Unit in Honduras to 
help investigate LGBT cases as well as other priority human 
rights cases, and new hate crimes training covering LGBT hate 
crimes for police officers from that region in our 
International Law Enforcement Academy in San Salvador. But, to 
date, we haven't really seen the fruits of these investments.
    I think the key is that we really need to double-down on 
our investment in that area to bring civil society into the 
process, so that they are working with the ILEA, that they are 
working with the Special Victims Unit, to really ensure that 
there is coordinated action on civil society's side as well as 
the government side to respond to these abuses.
    And, ultimately, at the political level from your seat here 
in Congress and from our Embassies in those countries, we need 
to ensure that the political will is there. I think we have 
seen moments of political will, but at times that political 
will has stumbled. So, I think more of the same, but it is an 
urgent request.
    Mr. Engel. Thank you.
    Let me ask you this: You have mentioned in your testimony 
the horrific abuses inflected by ISIS on gay men, people being 
thrown off buildings, stoned to death, and all videotaped to 
serve as a warning to others. LGBT individuals are sometimes 
forced to flee for their lives, and I understand that it is 
difficult to determine how many refugees of LGBT there are 
since LGBT people often do not self-identify. They fear 
violence and retaliation from their community or even from 
other refugees.
    So, it seems to me the LGBT refugees from different parts 
of the world suffer unique vulnerabilities and face difficult 
circumstances. Can you tell us more about that, the continued 
challenges they face while fleeing or in a refugee camp, or 
even when already resettled in another country?
    Mr. Bromley. Thank you, Mr. Engel.
    Absolutely. As I mentioned, LGBT refugees are probably some 
of the most vulnerable individuals on the planet. Even when 
they are forced to flee their own country, which is a decision 
that no individual takes lightly, they find themselves in a 
refugee community, often in a country that is equally hostile 
to LGBT individuals, in a refugee community that doesn't 
understand their own situation or their claim for protection on 
the basis of their sexual orientation or gender identity. And 
they are exposed to extreme levels of violence and persecution 
in camp settings, in particular.
    We are seeing large concentrations of LGBT refugees, 
particularly in cities in Turkey, where they are also very 
vulnerable and often forced to the margins of society. 
Fortunately, UNHCR and the U.S. Government are looking at 
opportunities to identify those LGBT refugees. As you noted, 
the first challenge is convincing them that it is safe to come 
out, to tell authorities, to tell UNHCR who they are and why 
they need protection. Once they are identified, there are 
opportunities to offer additional protections, to offer refugee 
processing in a way that is both sensitive and efficient, to 
try to get them out of danger as quickly as possible.
    But those steps need additional support. We really need to 
continue to push UNHCR, which is on the frontlines here. As the 
largest investor in UNHCR, I think we can make sure that they 
make a difference.
    Mr. Engel. And let me ask you one final question. The State 
Department Global Equality Fund supports courageous frontline 
human rights defenders, and not enough can be said of their 
bravery to fight against the hate and the violence, the 
vitriol. I think of the dauntless Frank Mugisha in Uganda whose 
colleague was brutally murdered; he continues to stand up for 
those who want dignity in their lives or the countless others 
who work under the threat of violence, detention, and beatings.
    What more can the U.S. Government do to support these 
frontline human rights defenders?
    Mr. Bromley. Thank you.
    I do think the Global Equality Fund is a remarkable fund 
and one that we have really been able to use to great 
advantage. It is co-funded by 13 other governments. So, we are 
not in this alone. We are pooling the resources, and the U.S. 
is using our broad reach through our Embassies to really lead 
that Fund and help identify those activists on the frontline 
who are most in need of support.
    But I think we need to really support that fund. We can 
grow it with more governments. I believe there are a couple 
more that are going to be coming into the Fund. But that takes 
diplomatic engagement and it takes U.S. leadership to show that 
we will continue to be a leader in that Fund and in this 
struggle to support some of these truly brave human rights 
defenders who are on the frontlines in places like Uganda and 
elsewhere where it is really difficult to be standing up for 
fundamental freedoms and for pluralistic societies.
    Mr. Engel. Thank you, and I want to thank all the 
witnesses. Thank you.
    Chairman Royce. Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    Ambassador Lagon, this is for you. The U.S. Commission on 
International Religious Freedom 2015 Annual Report stated that, 
``By any measure, religious freedoms abroad has been under 
serious and sustained assault since 2015.'' Of course, we all 
have been talking about that. You know that.
    The Freedom House's 2016 Freedom in the World report noted 
violence against religious minorities on each continent, paying 
special recognition to assaults in India, Bangladesh, Brunei, 
Cuba, Angola, and Macedonia. This increase in violence against 
religious minorities prompted many to flee their homelands and 
seek refuge elsewhere, especially in Europe. And then, the 
report goes on to state that, ``This mass influx fueled an 
already-rising tide of hatred and violence targeting Muslims 
and Jews, particularly in Western Europe.''
    With that as a backdrop, there have been reports of rising 
anti-Semitism in Europe, the BDS Movement, for example, 
especially in states that had a resurgence of the far right and 
far left parties gaining--I don't know if they are gaining 
control but obviously being active. Last year, Israel saw the 
largest immigration of Jews in decades. Some have attributed 
this growing anti-Semitism to general xenophobic responses to 
mass immigration from the Middle East. Do you believe that is a 
reasonable correlation?
    Ambassador Lagon. I think there are people who are 
responding in Europe in xenophobic and nativist ways, and they 
are putting Muslims all into one category. I think that there 
is a really disturbing trend which one has seen over years that 
has spiked on anti-Semitism as well. It is not something I like 
doing to have to point out that there are disturbing trends 
among Western countries. But the kinds of statements that you 
see from the Czech President about those arriving from the 
Middle East who are Muslims being an organized invasion and the 
increase in the assault, even in Germany which has welcomed 
those who are refugees, and of neo-Nazis in an anti-Semitic 
way, we are seeing a trend of an increase in the worst kind of 
xenophobia, not just discrimination, but real violent 
persecution.
    Mr. Weber. As Ambassador-at-Large, 2007 to 2009--is that 
right?--you, obviously, have paid attention and, obviously, 
what you all do is paying attention. Do you know of any other 
anti-Semitic against the Jewish state, do you know of any other 
xenophobic, as you call it, response to a country or a state 
like that against the Jewish state of Israel?
    Ambassador Lagon. Well, there is a distinctive persecution 
of Israel, and one sees it, in particular, in the U.N. For my 
sins, I worked for the State Department on U.N. affairs.
    Mr. Weber. For your ``sins''?
    Ambassador Lagon. Yes, for my sins. You know, working as a 
Deputy Assistant Secretary----
    Mr. Weber. You must have had some really bad sins. 
[Laughter.]
    Ambassador Lagon. I see that at the U.N. where there is a 
distinct special focus on Israel and, in fact, even global 
conferences that are on xenophobia have focused distinctly on 
Israel.
    Mr. Weber. Okay, but why is that? You are quantitating it 
with the amount of focus. Why?
    Ambassador Lagon. In my view, it is a stalking horse for a 
criticism of the West, a criticism of globalization, and a 
criticism of big democratic powers by picking on Israel.
    But I think it is worth looking at a broader pattern of 
xenophobia. My parents are immigrants from Poland. I am deeply 
disturbed, as anyone should be, about the turn of events in 
Poland where the government is quite nationalist and it is 
treating those who are migrants as possibly suspect for 
terrorism. We should worry about the coarsening of views in 
Europe and, indeed, in the United States. Anti-Semitism is one 
of the most disturbing forms of it, but not the only.
    Mr. Weber. But would you say that the rise of terrorism--it 
depends on how far back you want to go--but anti-Semitism has 
been around a long--I don't know of any other state, and this 
is your specialty, any other people who have been discriminated 
against on that level like the anti-Semitism that we have seen 
for years. Would you agree with that?
    Ambassador Lagon. Well, anti-Semitism has, sadly, been a 
corrosive feeling for centuries. We should remember every time 
we invoke the phrase ``never again'' related to genocide that 
we are most likely speaking of an effort to stamp out the 
Jewish people in Europe.
    Mr. Weber. So, one last question.
    Ambassador Lagon. And anti-Semitism continues in mild, 
intense, and in deeply-violent----
    Mr. Weber. Okay. Well, I am out of time. Forgive me.
    But one last question very quickly, if I may, Mr. Chairman.
    So, you are watching the Iran nuclear giveaway, I call it. 
And so, you are watching the statements of Ayatollah Khomeini 
that Israel is a one-bomb nation. Does that concern you?
    Ambassador Lagon. Yes, of course it does. And I think that 
you should take dictators and theocrats seriously when they 
talk about trying to wipe a nation off the map.
    Mr. Weber. Okay. Thank you.
    Ambassador Lagon. If I may just comment, for a long time 
U.S. policy tried to satisfy the human rights issues on Iran to 
focus on the nuclear issue. Now that there is a nuclear deal, 
no matter what one might think of it, it is time to focus on 
those human rights issues and put the kind of pressure on 
Iran----
    Mr. Weber. So, let me paraphrase it, if I may, Mr. 
Chairman.
    So, what you are saying is, if a dictatorial regime has 
zero respect for human rights, they can't be trusted and need 
to be dealt with in a harsh way?
    Ambassador Lagon. I have no trust for a regime that treats 
its own political opponents or certain minority groups as less 
than human.
    Mr. Weber. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Thank you.
    I have one question just for the record that I won't ask 
for an oral response, but it builds on what the gentleman just 
said, and it is a tough one. And that is, is it appropriate in 
screening refugees from the Middle East and determining who to 
admit to exclude someone who has such extreme anti-Semitic 
views that their presence in the host country, they may not 
engage in violence themselves, but it creates a culture in 
which violent anti-Semitism is applauded, at least in one 
cultural segment of the country? So, I will ask for that as a 
written response.
    Mrs. Schnetzer pointed out the slave labor problem in North 
Korea. I should point out that, while the case on work camps is 
now closed, there is only a matter of time before it is, I 
think, reopened. There is just too much money to be made there. 
And those slave labor products may well enter the United States 
duty-free under our free trade agreements and particularly TPP. 
Those of us who fought for ironclad assurance that goods made 
north of the DMZ would not enter duty-free failed in both 
agreements. And it is only a matter of time, I think, before 
slave labor goods come into our country from Kasung.
    I want to comment a little bit about the background here, 
and that is legitimacy. Governments need to answer the 
question, why is it legitimate for them to rule? For hundreds 
of years, monarchy served as an answer. Now monarchy is being 
swept into the dust bin of history. Democracy is the only 
system that can answer that question, and it can allow for 
peaceful succession and a role for opponents.
    There are a few other systems that offer legitimacy. 
Communism, there is no vanguard of the proletariat left. 
Theocracy exists in Iran, and there are some dictatorships 
allied by theocratic elements. I fear that that is becoming 
increasingly true in Turkey.
    But, ultimately, you end up with a lot of governments that 
are just illegitimate who cannot answer the question, why are 
you in power except you happen to have guns? And so, they try 
to find an enemy. First, they seek an external enemy with 
exaggerated nationalism, but they also can seek an internal 
enemy, and then, they can demonize that enemy and use that as a 
way to rally support.
    Switching to another topic, I believe it was the chairman 
who pointed out how horrific events in Syria are. We should 
point out that those millions of displaced people and hundreds 
of thousands of deaths could not occur if Assad didn't have 
allies. There is a lot of focus on Russia because, even if a 
former nuclear power does something modest, you have to pay a 
lot of attention because they have hundreds of nuclear weapons 
behind them.
    But most of Assad's support comes from Iran. Thugs are 
being flown into Damascus or being brought by Iran in from 
Lebanon. And we are now asked to provide the planes that will 
be used to take more thugs, more weapons, to Assad. As long as 
we put ``Air Iran,'' rather than ``Iran Air Force,'' on the 
outside of these planes, we are told that that cleanses our 
soul and our responsibility. And we are told that we should 
sell these with no U.N. monitor to make sure that the plane is 
not used to fly to carry weapons to Assad.
    Finally, let me be the only person to say anything happy 
here. And that is, if you look at the long arc of history, it 
does bend toward justice. That is not a phrase that I invented. 
In the 18th century there was only one democracy. We had far 
more in the 19th century. We had far, far more in the 20th 
century. And I am confident that we will see in the 21st 
century the march of democracy and human rights around the 
world.
    Let me try to bring in one question. Mr. Bromley, in 2011, 
the Obama administration issues its Presidential Memorandum on 
International Initiatives to Advance Human Rights of LGBT 
Persons. How are they doing?
    Mr. Bromley. Great. Thank you for that question.
    The Presidential Memorandum I think has been a very 
important government-wide tool to look at the various funding 
streams and programs that we have internationally that could be 
leveraged to really offer additional support for LGBT 
communities in some really hostile environments. And I think 
they have been doing a really good job.
    I think there are a couple of important features of the 
Presidential Memorandum. It requires each of the foreign 
affairs agencies to report annually back to the White House on 
what they have been doing to really look at the problem and 
leverage some of their existing assets to address the problem 
of discrimination and violence against LGBT individuals. And 
that reporting-back process allows additional interagency 
coordination and sharing and some reflection that allows us to 
carry forward and really create some new synergies in our 
programming. So, I think that has been incredibly important.
    I also think that it has allowed a focus on violence 
prevention. I think at the end of the day what we really need 
to do is use our foreign affairs assets to help countries tamp 
down on hate violence and the really extreme levels of violence 
against LGBT individuals. That will allow them, then, to 
organize and demand their rights as legitimate citizens in any 
country.
    And so, I think, again, this coordination, particularly 
around violence prevention programs and human rights 
initiatives, has been incredibly important, and we certainly 
hope that it is an effort that will continue into future 
administrations.
    Mr. Sherman. Thank you.
    Chairman Royce. Thank you.
    Just for the record, Mr. Chairman, the case on industrial 
complexes, as you know, has been shut down. And secondarily, 
there is a conflict division, shall we say, between how we read 
the agreement? The agreement seems pretty ironclad in terms of 
disallowing South Korea to participate if they allow those 
goats to come through. I know the enforcement is an issue with 
you, but just for the record.
    Mr. Sherman. Mr. Chairman, I did note in my comments that 
it is currently shut down, but I suspect that it will be opened 
in the next year or two.
    And as to whether the language is adequate, one has to 
wonder why the proponents of the agreement were unwilling to 
put in the iron ironclad language that many of us were pushing 
and why they insisted upon the language that I think will allow 
the----
    Chairman Royce. No, no. I think they put in what they 
thought was the iron ironclad, but maybe there is a new iron 
ironclad----
    Mr. Sherman. They certainly didn't listen to those of us 
who were pushing for----
    Chairman Royce. Suffice it to say that there is a 
disagreement on the interpretation there.
    We are going to go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate the panelists being here.
    And when I ask these questions or my statement, I want you 
to think how we can better do our foreign aid and how we can 
get better results ultimately, is what we are looking for.
    Freedom House, the 2016 Freedom in the World report, a 
decline in global freedom in each of the past 10 years; 60 
percent of the world's population now living in countries 
designated as partly free or not free at all. Perhaps even more 
troubling has been the recent backsliding of respect for human 
rights in longstanding democracies. Many regimes have responded 
to popular grievance and anti-democratic sentiment by closing 
space for political dissent and uncensored discourse. Other 
countries have seen discrimination against religious 
minorities, LGBT, you know, what we have talked about here.
    In Malawi, albinos have become targets for organ 
harvesting, fueled by beliefs that their body parts can be used 
in witchcraft to bring wealth and cure disease. And Russian 
world human rights offenders, Putin's regime closed independent 
media outlets and jailed journalists. And we see that all over 
the world. And a perceived rise in anti-Semitism across Europe 
has led to record numbers of Jewish immigrants leaving, as Mr. 
Weber talked about, for Israel.
    You know, it just goes on and on and on, and it gets to be 
a very bleak picture. Yet, the United States of America and 
other countries have invested billions and billions, if not 
trillions, of dollars over the last 30 years, 40 years. In 
Ethiopia, since World War II, we have given tens of billions of 
dollars. Yet, everything seems to be in decline.
    And I think it was you, Ambassador Lagon, talking about the 
human rights and suppression along with corruption go hand-in-
hand with declining freedoms. I just came back from a trip in 
South America. In every country we went to there was corruption 
in the government. We have been over to Africa, the Middle 
East. Corruption in all these governments, yet we do business 
with them. We know countries like Vietnam are involved in the 
slave trade, human trafficking, things like that, and we put 
stipulations on them that you must meet our standards and we 
will trade with you, or you must meet our standards and we will 
give you foreign aid. Yet, we know they are not doing it. Yet, 
we trade with them and we give them foreign aid.
    Why should we continue that? Why should I go back to my 
district and talk to my constituents and say, ``We have to keep 
giving foreign aid.''? And I understand the purpose. We are 
trying to create democracy and good trading partners. But I 
think it is time that we played hard ball in this and pick out 
those countries that are willing to come to this side of the 
table, and let's support those. And if we can get a win here, 
you know, success breeds success.
    But what we are doing over the last 30 years seems to be 
lunacy on the majority of it for me. What are your comments?
    Ambassador Lagon. Why don't I briefly just talk about the 
tools that we have in the toolbox? Legislators, those in the 
executive branch, have an opportunity to talk with the American 
people about what we can do.
    We should be able to use the sticks. One reason I am in 
favor of the Global Magnitsky Sanctions Act is to target those 
particular officials who are responsible for corruption or the 
human rights abuses themselves, put the squeeze on them, and 
put their leaders in the position of either cutting them loose 
and losing backers in their heinous regimes or hugging them and 
showing that their regimes are bad.
    I used to be the U.S. Ambassador-at-Large to Combat 
Trafficking in Persons. When countries are on Tier 3, they 
should get the sanctions that the 2000 Trafficking Victims 
Protection Act provides for and not be given a waiver.
    In terms of aid, which you properly ask about, Ethiopia is 
a fantastic example in which the United States has bankrolled a 
government, ostensibly to fight terrorism. In Fiscal Years 2013 
and 2014, there was a combined $1.2 billion in foreign 
assistance and not a dime on governance programs. And it has 
gotten all the way up to $1.25 million in governance programs 
out of over $650 million in aid in Fiscal Year 2015. That is an 
imbalance.
    Then, finally, I need to make an appeal. If you are worried 
about the budget problem for the United States and spending our 
resources in a prudent way, governance programs are a good 
small investment. That is actually a form of foreign assistance 
that makes much more sense than those that have no ties 
whatsoever.
    Mr. Yoho. Where can you give me an example that has worked 
well? Because Ethiopia, I look at your Freedom Index from your 
organization; they are not free. After billions and billions 
and billions of dollars being put into that, why are we not 
getting a better result or bang for the buck.
    Ambassador Lagon. Let me give you a couple of examples, one 
that involves Freedom House and one that is not----
    Mr. Yoho. Hold on just a minute.
    Madam Chairman?
    Ms. Ros-Lehtinen [presiding]. Yes, you are a little bit 
over, but maybe we will do that in a concise answer.
    Mr. Yoho. Thank you.
    Ambassador Lagon. I will be quick.
    In Burma, Freedom House is working on religious pluralism 
and tolerance, so that the gains in the direction of democracy, 
which are by no means consolidated, can, in fact, be 
worthwhile. That is a place for a little bit of sustained 
assistance.
    In Nigeria, one of the few countries in which there has 
been continued aid in sub-Saharan Africa, the fact that all the 
democracy support organizations like NDI and others were there 
helped the elections go in the right direction, and we now have 
a tougher regime that confronts corruption and fights Boko 
Haram.
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador. Thank you, Mr. 
Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Mr. Sires of New Jersey.
    Mr. Sires. Thank you, Madam Chair.
    Ambassador Lagon, thank you. Thank you for being here, and 
all the other witnesses that we have here.
    As a followup to my colleague Ted Yoho, is selective 
enforcement problematic in terms of other countries taking us 
seriously? We have seemed to turn a blind eye to some countries 
and, yet, we come down hard on others. Do you see that as a 
problem for all the countries to take us seriously and say, 
``Well, you know, they do this in Ethiopia.''?
    Ambassador Lagon. Selectivity is a problem. In fact, when 
the United States itself engages in forms of surveillance or 
treatment of detainees that make it easier for dictators to 
say, ``Well, you are doing the same things we are,'' that is a 
problem.
    But the selectivity of sanctions and of assistance programs 
is a problem. One reason Freedom House is so strongly in favor 
of the Global Magnitsky legislation is that there are some 
countries that you are not going to imagine there being 
comprehensive sanctions. The United States is not going to 
embrace comprehensive sanctions against China because of our 
business engagement. But it would be really important to have 
legislation where you could target those officials who are 
responsible for corruption and the worst human rights abuses, 
so that you signal that it will not be something the United 
States would accept. And that would really help with that 
problem of selectivity.
    Mr. Sires. Thank you.
    Dr. Farr, I represent a large group of Catholic Christians 
in my district. One of the concerns that I always have when I 
speak to them, and they share with me, is their safety. I am 
just wondering, are they safer today than they were in Egypt?
    Mr. Farr. I don't know how the answer to that could be yes. 
I think the answer is, no, they are not safer. One could make 
an argument that under General el-Sisi things have calmed down. 
So, if you compare it to a year or 2 years ago when Egypt 
seemed to be on the verge of internal collapse, they are safer 
for the moment. But, if you look at this over the long-term, I 
think the Coptic Christians and other minorities in Egypt 
remain in peril, which is why I support the idea of not only 
targeted funding of religious freedom activists in places like 
Egypt, but a more systemic approach to developing religious 
freedom not only as a way of protecting Copts, but of 
developing good governance in Egypt. So, I think religious 
freedom for the Copts as well as all of Egypt's citizens can 
protect the Copts. The answer to your question is, no, they are 
not. In my view, we are not doing enough to address this 
problem over the long-term.
    Mr. Sires. Thank you.
    I am one of those people that believes that in South 
America we are going in reverse. You have Ecuador where they 
beat up, they file lawsuits against the press. Are we going 
backwards in some of these countries?
    Ambassador Lagon. I think we are going backwards, and that 
is a disturbing thing when countries that have been in a free 
category or, you know, would be considered democracies are 
going backward. There is a trend of populism in Latin America, 
and in South America in particular, where the formula is 
leaders speaking in favor of the poor in their country, but, in 
fact, being grossly corrupt, intimidating opposition and media. 
So, the pattern you describe in Ecuador has also been seen in 
Venezuela in a most heinous form, but in Bolivia and elsewhere.
    But there are glimmers of hope. The fact that people----
    Mr. Sires. Except in Cuba.
    Ambassador Lagon. In Venezuela things went in the right 
direction.
    Mr. Sires. Yes, but, except in Cuba, there is no hope 
there.
    Ambassador Lagon. Cuba, I am not saying that there is a 
regionwide trend that is in the right direction. It is, in 
fact, in the wrong direction. But in two places, glimmers of 
hope: Argentina moving away from the Kirchner's corruption and 
intimidation of opposition and those people standing up to the 
Venezuelan Government and coming out for parliamentary 
elections late last year in favor of the opposition.
    Mr. Sires. Okay. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Sires.
    Mr. Perry is recognized.
    Mr. Perry. Thank you, Madam Chair.
    Mr. Ambassador, I want to focus a little bit of attention 
on the rise of anti-Semitism in Europe and the fact that it 
seems to be enshrined in the U.N. Human Rights Council by their 
votes and actions.
    I am wondering if you could advise us as well, Mrs. 
Schnetzer, on what you think the United States should do to 
leverage our position to curb that financially, if you think 
that that is something, or otherwise. Because what I see, it is 
almost unbelievable that we just stand for it and allow it to 
continue.
    Ambassador Lagon. Look, I have very open eyes about the 
U.N.'s problems, which is the main place where people attack 
Israel and sometimes express anti-Semitism.
    Mr. Perry. Sometimes? Sometimes they don't.
    Ambassador Lagon. It is regularly a place where Israel is 
focused on more than any other nation for criticism. However, 
it is my view, as someone who is involved in the negotiation of 
creating the U.N. Human Rights Council, that for all of its 
faults, it is better for the United States to be in the room 
and to create an atmosphere in which there is more balance 
rather than less balance.
    Mr. Perry. Okay, so we are in the room, but how are we 
stopping it?
    Ambassador Lagon. The United States is the only nation that 
not only can assert its vote, but actually form coalitions and 
browbeat other nations into moving in the right direction. It 
is a worse situation for Israel at any U.N. body if the United 
States is not there.
    Mr. Perry. All right. If I could, Mrs. Schnetzer, any 
thoughts quickly?
    Ms. Schnetzer. Yes, sir. So, I think it is important to 
note that in the Middle East today there are two democratic 
countries, Tunisia and Israel. I think it is important to 
continue to find ways to stand by those countries that are our 
democratic allies and supporters----
    Mr. Perry. Agreed.
    Ms. Schnetzer [continuing]. And those that are moving in 
the right direction, but still have a long way to go.
    I do think that it is important for the United States and 
for Government and for Congress to find those opportunities for 
leveraging influence. I am disturbed about the trends that we 
see in Europe today. I am disturbed about some of the rhetoric 
in our own country today, and to find the opportunities for 
leverage and influence is important.
    Mr. Perry. Let me just tell you from this policymaker's 
standpoint it doesn't seem like we have a plan or a vision to 
tangibly do that. It is a goal, but we are looking for some 
opportunity that shows up at some point, and then, we will take 
advantage of the opportunity. That is hoping on chance and 
luck, and I would like to see us do a better job.
    I have a limited amount of time, so I appreciate that.
    Mr. Bromley, listening to your statements, I am wondering 
about your organization's position on Sharia and its treatment 
of the LGBT community in the countries where Sharia is strictly 
enforced, if there is such a community in those communities. I 
have heard of a lot of funding, advocacy for a lot of funding, 
but other than reports, not a whole lot of deliverables. And I 
am just wondering about your--we can get into that, but what is 
your organization's public position and statements on that 
issue of Sharia, not only the treatment of women, but the LGBT 
community, in particular?
    Mr. Bromley. Certainly. Thank you for the question.
    The most radical interpretation of Sharia does include the 
death penalty for LGBT individuals, and that, obviously, is a 
grave human rights----
    Mr. Perry. I know that. I want to know what your position 
is. What are your public--and I don't mean to be short, but I 
have got a limited amount of time. So, I am trying to get the 
information.
    Mr. Bromley. I mean, we have condemned the death penalty 
that was adapted in Brunei as part of a Sharia reform in 
Brunei, and we have been quite critical of that and believe, 
actually, that that raises serious questions about whether 
Brunei should be in----
    Mr. Perry. So, you only condemn the death penalty portion 
of Sharia or you condemn the actions of Sharia as they----
    Mr. Bromley. No, absolutely other actions of Sharia, 
including lesser penalties that are still corporal penalties or 
any penalty for consensual same-sex relationships is a 
violation of fundamental human rights and the Universal 
Declaration of Human Rights.
    Mr. Perry. And what about those practitioners that would 
wish to enact and practice Sharia in America with the same 
prohibitions for women and for the LGBT community? What is your 
organization's public position?
    Mr. Bromley. Well, with respect to the LGBT community, you 
know, any strict enforcement of Sharia would be a violation of 
the U.S. Constitution, and we obviously----
    Mr. Perry. And you have made those statements in that 
regard?
    Mr. Bromley. I would be happy to. I am making them now.
    Mr. Perry. Okay. That is important.
    Mr. Bromley. Absolutely.
    Mr. Perry. It is important to make sure people are aware, 
if you are going to have this message, to have it out there, 
not just have it reactively when asked, but have it proactively 
as an advocate for human rights for every single person on 
every single continent, including this one.
    Mr. Bromley. No, absolutely. There are mixed systems that 
don't interpret Sharia that way. But a strict interpretation of 
Sharia would be a violation of the Constitution of the U.S. and 
certainly a violation of U.N. human rights.
    Mr. Perry. Thank you, Mr. Chair. I yield.
    Chairman Royce [presiding]. Thank you.
    We will go to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
again and Ranking Member Engel for holding this hearing.
    I also want to thank Representative Lowenthal who I know 
rearranged his schedule at another subcommittee hearing to be 
here today, and I appreciate that very much.
    Thank you to our panelists. This testimony has been really 
helpful and I think illustrates how serious human rights issues 
are around the world. And we could probably have you here all 
day and continue this discussion, but I will try to get to my 
questions.
    First, the State Department report on human rights cited a 
pattern of abuse against LGBT people around the world from 
police or other security forces in countries around the world. 
And this is a really serious issue.
    As an example, the report states that 82 percent of people 
surveyed in Bolivia claim that they or someone they knew had 
been detained arbitrarily by police because of their sexual 
identity. So, Mr. Bromley, would you speak to this issue, and 
Mr. Ambassador, about what we can do and what we are doing 
successfully to help sensitize police on protection rather than 
persecution of LGBT individuals around the world, and how we 
can do that more effectively?
    Mr. Bromley. Thank you, Mr. Cicilline. I think this is an 
absolutely important question. I do think police violence is 
really the key to a lot of other forms of persecution and 
subjugation of LGBT individuals in many countries.
    I think the key is really trying to find opportunities to 
work with police forces to ensure that they see tolerance and 
respect for LGBT individuals, and, indeed, all minorities, 
including religious or ethnic minorities, as a point of 
professionalism. To do that, we have seen U.S. Embassies 
reaching out and supporting international visitor programs, for 
example, for senior police officers. There have been a number 
of senior police officers who have come to the United States 
from Jamaica, where there are high levels of violence against 
the LGBT community. And that opportunity to come here and to 
talk to other police officers in the United States, and 
understand that professionals don't do this and that it is 
simply not acceptable, I think those really are making a 
difference, those visitor programs.
    And there are ILEAs, International Law Enforcement 
Academies, that are rolling out hate crime trainings through 
all of the ILEAs this year. Again, I think that makes the point 
that this sort of violence is not professional, it is not 
acceptable, and it is not going to result in promotion to 
higher levels of your profession.
    Mr. Cicilline. Thank you.
    Mr. Lagon?
    Ambassador Lagon. So, in law enforcement you see problems, 
a sense of omission and a sense of commission. If law 
enforcement do not hold to account those who would commit 
violent acts of hate against the LGBT community, then justice 
isn't real. If they are actually complicit in committing 
violence against the LGBT community or harassing them, that is 
a horrendous problem.
    You asked about how we can improve the situation. One, I 
think that the envoy that exists at the State Department for 
LGBT issues should be codified. I commend you for trying to 
make that position a permanent one, one that doesn't have to 
depend on a particular President or a particular Secretary of 
State.
    And then, secondly, we have talked about the Global 
Equality Fund. Freedom House is the coordinator of a consortium 
called Dignity for All that gives emergency assistance to LGBT 
persons and activists who are under duress. That is exactly the 
kind of investment that makes sense to help those who are most 
vulnerable.
    Mr. Cicilline. Thank you.
    I have two final questions. A number of ASEAN countries 
criminalize homosexuality, including Brunei, Singapore, 
Myanmar, and Malaysia. Other than Thailand, there is no country 
in the ASEAN group that has anti-discrimination laws that 
guarantee equality of all citizens regardless of sexual 
orientation and gender identity.
    What strategies could the U.S. Government employ in our 
engagement with ASEAN and these countries, in particular, to 
encourage these governments to address these human rights 
challenges?
    The second question is, what countries are LGBT persons 
most under threat and where should we be kind of paying 
attention in the next year or two that might not be on our 
radar?
    So, I will ask you, Mr. Ambassador and Mr. Bromley.
    Ambassador Lagon. Yes, I will go first this time.
    I think when you look at the ASEAN countries, we should 
think of the voice of the United States as twofold, from the 
U.S. Government but, very importantly, from the business 
community, since the United States has such reach.
    So, having an envoy that is dedicated for these issues and 
making sure that, when there is a dialog at the Secretary of 
State level or the Cabinet level, that these issues be brought 
up, including by those who are conducting the trade 
relationship. That makes sense.
    The business community knows that they will not have as 
dynamic an investment atmosphere or a labor force if it doesn't 
include everybody who has talent, including the LGBT community. 
So, U.S.-headquartered multinational corporations have been and 
should all the more speak up with ASEAN nations: You need to 
have greater assets in your economy and not to sideline LGBT 
people.
    Mr. Bromley. For ASEAN, I would definitely echo that. I 
think in that region our business relationships are stronger 
than some of our political and diplomatic relationships. And 
certainly, I know in the negotiations of the Trans-Pacific 
Partnership these issues have been raised. I think however that 
goes forward, whether it is renegotiated or goes forward as is, 
we need to continue to leverage that trading relationship, that 
economic relationship to move forward.
    It is absolutely unacceptable that Singapore recently told 
multinational corporations that they should not be supporting 
their LGBT employees or Pride events in Singapore. As the hub 
of multinational business in Asia, that is just not acceptable, 
and we need to make that clear both diplomatically but 
economically as well.
    In terms of your other question on countries to look toward 
in the coming years, I do think Turkey is really important. It 
is the one country in the Middle East where we have seen a 
vibrant LGBT civil society community. It is the country where 
we have thousands, tens of thousands of LGBT refugees from the 
entire region.
    Unfortunately, the trends have been in the wrong direction. 
The past 2 years the Pride parades have been prohibited. 
Parliamentarians from Europe who tried to attend have been 
arrested. I think the trends are really concerning, but I think 
it is the country where we really need to figure out how to 
turn that around and to encourage a pluralistic view in a 
Middle Eastern country that has such a large geopolitical 
significance.
    Mr. Cicilline. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Royce. Thank you, Mr. Cicilline.
    We go to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
thank you for holding this hearing on such an important topic.
    I believe that the cause of human rights must be a larger 
priority in our foreign policy agenda. The administration's 
requests for human rights and democracy and governance funding 
are lower every year, and Congress has had to fill in the gap 
by providing more for these programs on its own.
    On top of that, the sanctions laws, which are designed to 
hold human rights violators accountable, are not being enforced 
the way that they should be. For example, the Venezuela Defense 
of Human Rights and Civil Society Act authorized the State 
Department to deny visas, freeze the assets of Venezuelan 
officials responsible for human rights abuses. Yet, the State 
Department has only pulled approximately 60 visas and the last 
and only time that anyone was sanctioned was in March 2015, 
when seven individuals, only seven, were designated. We can do 
better. We must do better.
    In my native homeland of Cuba, human rights have not been 
improved one bit as freedom of expression remains severely 
restricted. People are still being harassed. They are being 
beaten, imprisoned for speaking out against the regime.
    But, rather than using the tools at our disposal in these 
countries and everywhere to hold regimes accountable, 
restrictions are instead being lifted, putting more money into 
these authoritarian regimes and, then, used to repress the 
people of Cuba, for example.
    We see it also in places like Iran where, despite abundant 
evidence of human rights violations and multiple laws that 
allow the State Department to sanction responsible officials, 
the laws are simply not being enforced.
    In places like Egypt, where we have an important ally, our 
inability to program funds for human rights and other 
development challenges has created a backlog of hundreds of 
millions of dollars.
    Promoting and defending human rights worldwide is one of 
our core values. That is what we stand for as a country. It is 
crucial to both our economic and national security. They are 
all intertwined.
    So, while it is proper and correct that we continue to 
appropriate funds and pass sanctions laws with these goals in 
mind, if they are not going to be used, if they are not going 
to be enforced, we are only damaging our own interests while 
abandoning all of those who are still suffering.
    So, I ask three questions in general and anyone can answer. 
How effective can we be at promoting and defending human rights 
if we aren't programming the funds set aside for this purpose 
or even enforcing the laws designed to hold human rights 
violators accountable? Secondly, how can we ensure that people 
living under repressive regimes who need our assistance, they 
need it the most, are getting the help that they need? And 
lastly, how can we hold the administration, any administration 
from any party, responsible when it refuses to enforce the 
sanctions laws that Congress passes?
    Ambassador?
    Ambassador Lagon. Let me address the group of your 
questions this way: On programming, I think it is very 
important that Congress took the step in the appropriations 
bill of fencing off funding for democracy and governance. 
Because anytime that there is a Presidential initiative, and it 
may be worthy, Power Africa or whatever, the funding that 
Congress would like to see spent on our values and the basic 
interests, as I argue in my testimony, found in democratic 
governance, those funds get raided. So, it is a great thing 
that Congress took that step.
    To address your first and your last questions, sanctions, 
it is not a panacea, but I am a strong advocate of the Global 
Magnitsky Sanctions Act because, especially if it is in its 
strongest versions of the legislation, Congress has an 
opportunity to nominate those who ought to be subject to those 
sanctions as officials responsible for corruption and 
repression. If Congress is concerned about the executive branch 
using sanctions, the strongest version of the Global Magnitsky 
bill gives Congress that voice.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I am 
sorry I have to have a phone call. Thank you.
    Chairman Royce. Thank you. Thank you very much, Ileana. I 
appreciate it.
    Alan Lowenthal from California.
    Mr. Lowenthal. Thank you, Mr. Chair. First, I want to 
compliment you and commend you for holding this hearing on the 
1-month anniversary of tragic events in Orlando.
    And it is so important that, as we talk about the siege on 
human rights throughout the world, that we have spent a great 
deal of time and energy on the human rights of the LGBT 
community. I want to thank you, Mr. Chair, for holding this.
    I want to move on to Mr. Bromley and follow up on what the 
Ambassador said about the creation of the special envoy 
position. I worked on that with Senator Markey when we first 
introduced last session the International Human Rights Defense 
Act. And now, we have a bill with many Members of Congress as 
cosponsors to codify that and make it permanent.
    I want to state on the record I think Mr. Berry has done an 
excellent job. He has traveled throughout the world 
crisscrossing, speaking to everybody. I think he has been bold 
in his message that LGBT rights are human rights. It is a 
difficult task and he has done an amazing job. I really wish to 
commend him and his professionalism.
    I would really like to know what you believe is the 
significance of this special envoy position and what it has 
meant to the international LGBT community. And how important is 
it that we make this a permanent position at the State 
Department?
    Mr. Bromley. Thank you, Mr. Lowenthal, and thank you for 
your leadership in supporting that position.
    We absolutely agree with you that the position should be 
codified. It is an important position. And we also agree that 
Randy Berry, the special envoy, has done a remarkable job in 
that position. In just 1 year, he has been to 30 countries. I 
think his focus has been really thoughtful. He has been to some 
of the difficult countries, but he has been to many of the 
countries that we consider to be in the movable middle, 
countries where some one-on-one diplomatic engagement in the 
right way with the right tone, often behind the scenes, really 
can make a difference; where we can talk to countries like 
Vietnam that actually are starting to go in the right 
direction, not on other human rights issues, but at least on 
this one. And I think those conversations have been incredibly 
important.
    Initially, we were not supportive of creating a position at 
the very beginning of this administration when the Human Rights 
Bureau was really starting to look at how to integrate LGBT 
issues in a more holistic way into our human rights policies. 
And we thought that, if you created a position right away, it 
would likely be, you know, it could impact that integration of 
the issue across the Department.
    But the Human Rights Bureau has really led a thoughtful 
integration effort, and it came to the point, with your support 
and others, where we really needed a focal point to ensure that 
the integration that is happening in the regional bureaus, in 
the functional bureaus, that there is some coordination and 
that there is a person out there traveling the world, 
representing our values on these issues. So, we think it is 
incredibly important. Randy Berry has done a fantastic job, and 
we absolutely would like to see this codified.
    Mr. Lowenthal. I would like to return and change the 
subject a little bit to Vietnam and Cambodia. You just 
mentioned Vietnam and some of the advances. I think it was the 
Ambassador who said that human rights should be an integral 
part of our foreign policy.
    You know, recently, President Obama visited Vietnam. The 
administration lifted the lethal weapons sale ban to Vietnam. I 
thought this was supposed to be tied to improvement on human 
rights. Have you seen any evidence, have any of you seen any 
evidence that lifting the lethal weapons sales ban was 
justified by human rights improvement? Was this a decision that 
was based upon what we have seen? Because I have not seen any 
dramatic human rights improvement.
    Ambassador Lagon. If I were President Obama, I would be 
pretty angry because, when he visited Vietnam, that government 
went to great lengths to embarrass him by putting pressure on 
human rights defenders precisely when he went there.
    Mr. Lowenthal. That is exactly right.
    Ambassador Lagon. I happen to be in favor of the Trans-
Pacific Partnership. I think openness helps. I happen to be 
encouraged that Vietnam and Burma want better relations with 
the United States because of trying to counteract China in the 
region. But we should not let nations like Vietnam, Cambodia, 
Malaysia off the hook on human rights and human trafficking 
because of some alleged strategic interests. We aren't doing 
anybody a favor thinking counterbalancing China or free trade 
is a reason to lose the leverage to talk about human rights.
    Mr. Lowenthal. Thank you.
    Mr. Chair, just in conclusion, you know, this discussion 
that we are talking about, about human rights, comes at the 
same time that Dr. Kem Ley, a prominent political advocate and 
anti-corruption activist, was shot and killed in Phnom Penh in 
Cambodia. At the same time, there is this repressive crackdown 
by the Government of Cambodia against all political opponents.
    My question is, are we doing enough to promote a democracy 
and the rule of law in Cambodia? I know we are going to be 
looking at a markup this week. But I would just like to end by 
saying, in the midst of all of this, we are seeing, I agree, 
some changes. We have had a wonderful hearing today. But I am 
also seeing some of the most repressive activities going on 
throughout the world.
    With that, I will yield back.
    Chairman Royce. Thank you, Alan.
    Mr. Lowenthal. And thank you for your leadership on the 
Cambodia resolution.
    Chairman Royce. I appreciate it very much, Mr. Lowenthal.
    We will now go to Dan Donovan from New York.
    Mr. Donovan. Thank you, Mr. Chairman. And I apologize for 
my tardiness. I was chairing a homeland security hearing at the 
same time this began. So, a lot of the things that you spoke 
about I missed. So, I would rather ask a general question to 
all of you, rather than repeating a lot of the things you 
probably already spoke of.
    You know, our country is based on freedom of religion, 
freedom of assembly, freedom of speech. Not every country is. 
We respect human rights, maybe not so well at times, but the 
lesbian, gay, transgender, bisexual community, for women's 
rights. We don't exploit children for the most part, I believe. 
That is our belief, whether it be sexually or in the workplace. 
But other countries do and other countries don't have the same 
beliefs that we do.
    Are we able to change the mindset, the culture of other 
countries? Do carrots work, like trade agreements, as you said, 
Mr. Ambassador? Or do sanctions work, as we spoke about, some 
of my colleagues spoke about earlier, sanctioning countries 
that exploit people and don't recognize human rights?
    I was just curious about your general opinion about whether 
or not we, as a nation, can change the way of life in other 
nations to more conform to our beliefs and our way of life.
    Ambassador Lagon. Let me be brief. It is such a big and 
important question.
    Mr. Donovan. That is why I asked the question.
    Ambassador Lagon. But I think we should just be careful, 
when we talk about cultures, that we don't kind of become 
resigned that things can't change.
    You know, these things are universal. To quote former 
President Bush, it is a form of bigotry of having low 
expectations for certain cultures, that they can't support 
human rights or they won't support human rights or that they 
are not ready for democracy. We should try to encourage before 
we turn to sanctions, I think to show that countries will 
benefit themselves from more open economies, and being 
inclusive, including all the assets in those societies, is the 
way to start.
    But, ultimately, if they are flagrant human rights abusers, 
we should be willing to use sanctions. And we should be careful 
that countries like Saudi Arabia and Egypt, that we treat as 
allies in a global struggle against terrorism, are not so 
flagrantly engaging in repression, including in Saudi Arabia 
against a certain brand of Muslims, Shia, that, in fact, it is 
not serving our interests.
    Mr. Farr. Mr. Donovan, if I could just quickly respond to 
that as well?
    Mr. Donovan. Yes, please.
    Mr. Farr. I agree with Mark that sanctions are an important 
part of the toolkit, but they can't be the only one. In the 
region of religious freedom, the sanctions have been pretty 
much the only arrow in the quiver for these 20 years almost 
since the International Religious Freedom Act was passed. I 
think it is an important arrow and it is being strengthened.
    But, in order to change countries at a cultural level, you 
have to, in my view, go to their self-interest. I think there 
are arguments--we have discussed some of them here today--on 
the issue of religious freedom. If you want stable democracy 
and you are a highly religious society, it simply won't work 
without religious freedom. If you want economic growth and 
development in your country and you are a highly-religious 
society, you can't do it without religious freedom.
    Our Founders understood this. William Penn said, ``Come to 
Pennsylvania. We have religious freedom. It is good for 
business.''
    So, this isn't rocket science, but we don't do a very good 
job at making these arguments to countries that they can accept 
that leapfrogs some of these cultural boundaries. There are 
self-interest arguments that we have to make.
    Ms. Schnetzer. Thank you, sir, for that important question.
    I work at the Bush Institute. We start with one basic 
principle, that freedom is a universal human right. So that, 
regardless of where you are born on the earth, what language 
you speak, what religion you practice or don't practice, there 
is something innate in the human being that wants to be free 
and wants to exercise that freedom.
    And so, there are sort of two sides, I think, to the answer 
of your question. One is, with governments that repress their 
own people, what are the tools of influence and leverage that 
we can use to encourage them to move in the right direction?
    The other side of that is, what support can we give to the 
individuals who are on the frontlines of advocating for freedom 
and human rights in their countries? And so, funding and other 
kinds of support to them is critical. Whether it is in Burma or 
Cuba or in the Middle East, those human frustrations I think 
are the same. And it is important to remember them, but also 
use those tools of influence that we have as well.
    Mr. Donovan. So, you would suggest, besides external 
influences like the United States Government, supporting the 
internal influences on trying to change the suppression of 
human rights is equally as important?
    Ms. Schnetzer. Yes, sir, I do. I think it is important to 
provide support and encouragement and the spotlight, and all 
the things that we can do for those who want that support.
    Mr. Donovan. Thank you.
    Mr. Bromley, 2 seconds because the chairman is ready to 
shut down.
    Mr. Bromley. Absolutely. And in the LGBT context, changing 
hearts and minds is a long-term objective, but it is one that 
we are making progress on. U.S. ``carrots'' diplomatically are 
working. And when the President travels and speaks about LGBT 
issues, it really does make a difference. When he traveled to 
Kenya last year and spoke at State House about LGBT issues as a 
fundamental human right, that really did change the discourse 
in Kenya. And there were some really nasty bills that were 
moving through the Parliament in Kenya that have disappeared.
    It does make a difference. The U.S. is a thought leader, 
and when we speak, people do pay attention.
    Mr. Donovan. That is good to know.
    Thank you all for your answers.
    Chairman, I yield back.
    Chairman Royce. Thank you, Mr. Donovan.
    We go to Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    Dr. Farr, I wanted to follow up on Mr. Sires' earlier 
question about Egypt and the state of affairs there for Coptic 
Christians, in particular, but religious minorities overall. I 
wondered if you could just expand on your statement a little 
bit.
    I had a chance to visit there probably a little less than a 
year ago, met with some Coptic Christian leaders and families 
who felt that the situation has improved dramatically. But I 
just wonder if you could qualify your comments and expand on 
that a little.
    Mr. Farr. Sure. I was in Egypt under the regime of Mubarak 
and met with a number of Egyptian Coptics and others, including 
Muslims at the Al Azhar University. At the time the Coptic 
Christians were saying pretty much the same thing. ``We're 
doing okay. We have to keep our heads down. We have periodic 
problems. But please don't come in and make trouble for us.''
    That was followed, of course, by the so-called Arab Spring, 
where things were completely turned upside down for Coptic 
Christians and other minorities. Now they do seem to have 
stabilized.
    My only point is that I think it is a mistake to be too 
shortsighted or at least look at a short horizon. We don't know 
what is going to happen in Egypt. I don't think we should be 
turning it upside down ourselves, but I do believe we should be 
planning for the future and planting more seeds than we are for 
the idea that, whatever happens in Egypt, you have to have 
religious freedom for all these citizens. You have to allow 
everyone to participate in this country.
    Egypt fancies itself an emerging democracy, I believe, not 
a dictatorship. So, I think we could be doing more to play into 
that over the long-term.
    I hope that answers your question.
    Ms. Gabbard. Yes. Thank you.
    And forgive me if you have already covered Bangladesh. I 
was not here earlier. But I wanted to bring up the recent 
hackings, attacks, and other horrific violence that has 
occurred, in particular, amongst the Hindu, Christian, 
Buddhist, atheist, LGBT, secularist communities. You know, 
these attacks have been highlighted more in the news recently, 
but, in fact, in 2013, Hindu temples, 700 to 1500 homes were 
vandalized or burned, 47 temples destroyed. We are seeing 
similar trends in the years since and, of course, most 
recently, different seculars, bloggers, and others have been 
attacked in the street. Clearly, the Government of Bangladesh 
is not in control of the situation there. It continues to get 
worse.
    For whomever would like to comment, what can be done to get 
the Government of Bangladesh to take the necessary action to 
quell these attacks that are creating such a terror-like 
atmosphere for the citizens there?
    Ambassador Lagon. If I may, I think there is a problem 
throughout South Asia, not only in Bangladesh, of religious 
groups or people because of their gender identity being 
targeted.
    Freedom House, in assessing human rights in countries 
around the world, not only looks at how governments act and how 
they treat or persecute groups, but how freedom is felt in 
societies. In places like Bangladesh, you are in danger, under 
threat, or vulnerable.
    We must not only insist that governments not repress the 
voice of opposition or minorities, but, in fact, that they 
implement justice. Laws on paper or treaties that have been 
ratified are meaningless if governments do not make sure that 
people are not subject to violence or that people have true 
access to justice.
    Ms. Gabbard. Thank you.
    Mr. Farr. If I might just add to that?
    Ms. Gabbard. Please.
    Mr. Farr. When people abuse others for religious reasons, 
that is religious persecution. So, it is very important to 
understand why this is happening. Often, it is because of an 
extremist interpretation of Islam.
    Sometimes it is governments are complicit; sometimes they 
are not. And so, sorting this out is very important in 
constructing a response.
    I would mention again that H.R. 1150, which this committee 
has passed out and the House has passed, creates something 
called an entity of particular concern, which is added to the 
countries of particular concern list, which would identify 
entities within country, terrorist groups or otherwise, who are 
responsible for this kind of abuse.
    It also calls upon the State Department to construct a list 
of foreign individuals who engage in gross violations. So, this 
is refining the stick, if you will.
    But, at the end of the day when people are abusing others 
for religious reasons, one of the answers has to be to free, if 
you like--I don't particularly like this word--but the 
moderates within that tradition, wherever it is. They cannot 
speak out in most of these countries because of the laws and 
practices.
    So, promoting religious freedom is focusing on that problem 
as well, and we don't do a very good job of it. We need to do 
better.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Tulsi.
    Thank you to our witnesses here, to Ambassador Lagon and 
Amanda Schnetzer and Dr. Farr and Mark Bromley. We very much 
appreciate the work, also, that you have done, Ambassador, that 
your organization has documented that this is the 10th year of 
decline of global freedom.
    This committee has moved legislation to try to address some 
of these issues. The Global Magnitsky Act was one that we 
recently passed out of committee. We also, on the subject of 
human rights in North Korea, passed the legislation here that 
we feel helped create that environment in which the 
administration, complying with that law, spoke out on North 
Korean human rights and worked with the United Nations in order 
to try to take action there.
    But there is so much work to be done here. And so, we want 
to continue to encourage each of you. You have given us a lot 
to consider. And I also appreciate the insights that came from 
many of our members here testifying and in their cross-
examination with you witnesses here today. So, thank you very 
much.
    We stand adjourned.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
